<html>
<title> - CRIMINAL JUSTICE REFORM, PART I</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







                    CRIMINAL JUSTICE REFORM, PART I

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2015

                               __________

                           Serial No. 114-40

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-873 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
      Henry Kerner, Deputy Director, Oversight and Investigations
                           Sarah Vance, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 14, 2015....................................     1

                               WITNESSES

The Hon.Cedric Richmond, a Member of Congress from the State of 
  Louisiana
    Written Statement............................................     6
The Hon. John Cornyn, a U.S. Senator from the State of Texas
    Oral Statement...............................................     6
    Written Statement............................................     8
The Hon. Cory Booker, a U.S. Senator from the State of New Jersey
    Oral Statement...............................................     8
    Written Statement............................................    12
The Hon. F. James Sensenbrenner, Jr., a Representative in 
  congress from the State of Wisconsin
    Oral Statement...............................................    12
    Written Statement............................................    14
The Hon. Bobby Scott, A Representative in Congress from the State 
  of Virginia
    Oral Statement...............................................    14
    Written Statement............................................    17
The Hon. Robert Bentley, Governor of Alabama
    Oral Statement...............................................    18
    Written Statement............................................    19
The Hon. Jack Markell, Governor of Delaware
    Oral Statement...............................................    19
    Written Statement............................................    23

                                APPENDIX

June 2015 Status Report..........................................    42
Statement of Principles Necessary for South Carolina Sentencing 
  Reform Oversight Committee-Broad-Based Criminal Justice Reform.    44
Written Testimony of Jason Pye, Director of Justice Reform, 
  FreedomWorks...................................................    49
Remarks of Congressman Robert C. ``Bobby'' Scott.................    54
Testimony submitted for the Record on behalf of the U.S. 
  Conference of Catholic Bishops.................................    64

 
                    CRIMINAL JUSTICE REFORM, PART I

                              ----------                              


                         Tuesday, July 14, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:49 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, DesJarlais, Gowdy, Lummis, Massie, 
Meadows, Mulvaney, Buck, Walker, Hice, Russell, Carter, 
Grothman, Palmer, Cummings, Maloney, Norton, Clay, Lynch, 
Connolly, Kelly, Lawrence, Watson Coleman, Plaskett, 
DeSaulnier, and Welch.
    Also Present: Representative Jackson Lee.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    I am excited about this hearing. I appreciate this topic 
and the bipartisan approach in which we are taking on this. 
This is a vital topic. It affects literally millions of people.
    One of the things that we have to recognize, I think, as a 
Nation is that more than 90 percent of the people who will go 
to a Federal prison are going to come back out. And we have a 
duty and an obligation to make some determinations as to how we 
structure that.
    Are we sending the right people to prison? Are we doing the 
right things once they are there? And what are we doing as a 
Nation in order to reduce the rate of recidivism to make sure 
that we are protecting society and rehabilitating those who are 
in need of some rehabilitation?
    I worry that the criminal justice system today is not the 
system that I think we should aspire to. Some of the States are 
doing some innovative things, but at the Federal Government 
side I do think there is more that we can do to reduce the rate 
of recidivism, to incarcerate those and punish those that need 
the punishment, but also look after the taxpayer dollars. And 
the rise and expansion of the system is something that I would 
call into question and is ripe for an oversight hearing.
    And I appreciate the bipartisan nature, bicameral nature, 
in which we are going to direct this, as we hear from two 
Senators, two Members from the House of Representatives, and 
then two Governors. And then we will continue through tomorrow 
and hear from some others, as well.
    Let me put in perspective the Federal prison population and 
the unsustainable growth rate that we are seeing. From 1940 to 
1980, the Federal prison population barely moved. We had 
roughly 24,000 prisoners between 1940 and 1980. Over the next 
10 years, it more than doubled to about 58,000 prisoners. The 
1990s saw another 100-percent increase, to 134,000 prisoners. 
And from 2000 to 2010, it increased roughly 45 percent, to 
roughly 210,000 prisoners. We now have more than 219,000 
Federal prisoners, and the Federal Bureau of Prisons is at 40-
percent overcapacity.
    The Bureau of Prisons budget has grown right along with the 
prison population. Federal spending on prisons grew from $970 
million to $6.7 billion over the last 30 years. From 1998 to 
2012, the Bureau of Prisons budget increased from $3.1 billion 
to $6.6 billion. Today, the Bureau of Prisons takes up roughly 
25 percent of the Department of Justice budget, but its 
projections are to quickly get to 33 percent of that budget by 
the year 2020. This is obviously an unsustainable pace, and 
something needs to be adjusted.
    The good news is that many of the State and Federal 
officials are taking the issue of criminal justice reform 
seriously. Our witnesses here today have proposed or enacted a 
wide variety of legislation aimed at saving taxpayer money, 
improving public safety, and helping offenders come out of 
prison ready to become more productive members of society.
    Reform efforts have included tackling asset-forfeiture 
issues, front-end changes in the areas of equitable sentences, 
behind-the-wall changes to teach prisoners skills to lead 
productive lives once they get out, and back-end reforms aimed 
at reducing the rate of recidivism.
    On the front end, legislators have proposed altering 
mandatory minimum sentences for nonviolent criminals. Keeping 
more juvenile offenders out of prison has been a particular 
focus, given that imprisonment can dramatically reduce 
employment opportunities later in life. Increasing the use of 
nonconfinement alternatives like substance abuse programs, drug 
courts, and family counseling can give troubled youth a second 
chance.
    One of the more impactful things I did as a Member of 
Congress is go to visit Congressman Cummings' district. We 
visited with a group of young men who were trying to get 
their--and there were women in there, too--who were trying to 
get their lives back in order. They had made a mistake. They 
had overstepped their bounds. They had broken the law. They had 
been sentenced, convicted. They had served those sentences but 
now had a hard time getting out of that box.
    If you are a 22-year-old male with a felony on your record, 
what are you supposed to do? How are you supposed to get a job? 
You want to right your life; you have paid your debt to 
society. Then what do you do? We had better address that if we 
are going to make this country the premier country that I know 
that it is.
    Another front-end pilot program could give defendants a 
client choice program, basically giving them an attorney of 
their choice in place of a public defender, something worth 
exploring. Canada, the United Kingdom, and Australia use a 
similar system, and a pilot client choice system is now being 
tested in Texas.
    One of the most important front-end reforms is simplifying 
the Federal criminal code. There is no unified Federal criminal 
code at present, and the sprawl of thousands of laws creating 
Federal crimes leads to accidental and unknowing violations.
    Behind-the-wall changes would help prepare prisoners for 
meaningful lives after their sentences. Some proposals in this 
area would reduce the use of solitary confinement, which can 
lead to problems with reintegration into society after prison.
    And, finally, back-end reforms have tremendous potential to 
reduce costs, improve public safety, and give offenders an 
opportunity to rebuild their lives. Research indicates that 
spending long sentences in prison worsens recidivism rates 
among nonviolent and low-risk offenders. And back-end proposals 
thus attempt to identify low-risk offenders, making sure they 
attend programming proven to lower recidivism, and then place 
them into alternative confinement settings, such as halfway 
houses or electronic monitoring.
    Some States, such as Delaware, have taken further steps to 
assist prisoners by helping them get jobs. Many States no 
longer allow State agencies to ask about criminal history early 
in the hiring process so that qualified rehabilitated 
individuals can more easily gain employment.
    Criminal justice reform is an example where Republicans and 
Democrats in the State and Federal Government are working 
together to improve the country. I am very much looking forward 
to this hearing and to ultimately moving legislation that can 
get to the President's desk.
    We appreciate the President's expression of wanting to 
tackle this topic. It needs to be done so in a bipartisan, 
bicameral way. That is the spirit in which we gather here 
today. I do appreciate the effort also of Chairman Goodlatte, 
who is holding and conducting a hearing simultaneous to this 
but obviously plays an important role.
    With that, I would now like to recognize the ranking 
member, the gentleman from Maryland, Mr. Cummings, for his 
opening statement.
    Mr. Cummings. Thank you very much.
    And I want to thank you very much, Mr. Chairman, for 
holding this hearing today and then the second hearing 
tomorrow. And I am also very grateful for the way you and your 
staff have worked with us over the past 6 months to put these 
critical hearings together in a truly bipartisan way. People 
have no idea how challenging it can be to line up such an 
impressive panel of Members of Congress, Governors, and some of 
our Nation's most noted experts, so I am thankful.
    I first wrote to the chairman in December, and I requested 
hearings to examine a wide range of factors leading to the 
deaths of unarmed African Americans at the hands of law 
enforcement across our great country, including the Federal 
response to these incidents.
    In February, I followed up with specific proposals, 
including a hearing with officials from the State level, 
including both Democratic and Republican Governors who have had 
bipartisan successes. States are sometimes called our Nation's 
laboratories for reform, and they have led the way in 
addressing underlying problems with our criminal justice 
system.
    I also hosted a bipartisan forum at Howard University, 
bringing together voices as diverse as Senator Cory Booker, who 
will be with us today, Senator Rand Paul, Congressman Raul 
Labrador, and Congressman Hakeem Jeffries, and our own 
Congresswoman Stacey Plaskett.
    For me, this issue truly hit home, literally, as I watched 
my community in Baltimore torn apart after the tragic death of 
one of my neighbors, Freddie Gray. Watching the place I have 
always called home, the place where I was born and my six 
brothers and sisters were born, where I went to law school and 
where I raised my family, to see it erupt into violence 
underscored the urgent need to examine systemic problems facing 
our criminal justice system at its core.
    This, Mr. Chairman, is a landmark hearing for our 
committee. We have a unique ability to explore criminal justice 
reform. Our broad jurisdiction allows us to examine policies 
across all agencies of the Federal Government as well as 
successful State and local reforms.
    As we will hear over the course of these two hearings, the 
United States has 5 percent of the world's population but we 
have almost 25 percent of the world's prison population. 
Senator Booker talks about this so eloquently so often. That is 
the highest incarceration rate of any country in the world. 
These statistics are stunning, but they are also very tragic.
    Right now, we have an historic moment of opportunity on 
criminal justice reform. We must strive to turn this moment 
into a movement. Today, I firmly believe that Congress must act 
in a bipartisan way to pass comprehensive legislation.
    As we review successful State-level policies, we will see 
that there is no one policy that is a cure-all. Instead, 
reforms must address the full spectrum of issues, including how 
people enter the criminal justice in the first place, what 
happens to them when they are incarcerated, and how they 
reenter society after release.
    Mr. Chairman, you are absolutely right; when somebody gets 
a record, even if they have never served a moment in prison, 
they have a record for the rest of their life. My neighbors--I 
have a lot of them--they come to a job fair; they have a 
record. There may be 100 employers, and, at best, maybe 5 
employers will even interview them with a record. And so they 
ask the question, how am I supposed to survive? How am I 
supposed to feed my family? They have already served their time 
or did whatever they were supposed to do and paid back to 
society, but now they are stuck.
    It must also take into account the racial disparities that 
plague our system and how young people, women, and other 
populations are uniquely affected.
    Today, we will hear about the SAFE Justice Act, which was 
introduced by Chairman Sensenbrenner of the Subcommittee on 
Crime, and Ranking Member Scott, the ranking member of the 
Committee on Education and the Workforce. This is a bipartisan, 
balanced bill that implements policies based on evidence--based 
on evidence. And these proposals have proven successful at the 
State level.
    The SAFE Justice Act is truly bipartisan and broad-based. 
It reduces the duplication of Federal and State charges, 
clarifies original congressional intent regarding certain drug 
sentences, and encourages alternative courts, like drug and 
veterans courts. It also reinvests savings--and this is key, 
Mr. Chairman--it also reinvests savings to strengthen 
communities and ensure that law enforcement officers have what 
they need to do their job effectively.
    We will also hear about State-level efforts to, ``ban the 
box'' and prevent employers from asking about criminal 
histories at the outset of the application process. We cannot--
we cannot--perpetuate a system in which people have nowhere to 
go other than a life of crime.
    I commend the President for his actions yesterday to 
commute the sentences of 46 drug offenders whose punishments 
did not match the crimes committed. But we also need policies 
to help individuals who leave prison, as you said, Mr. 
Chairman, to be considered for jobs based on their merits and 
fitness for those positions rather than their criminal record.
    Currently, 18 States and more than 100 cities and counties 
across the political spectrum have taken steps to implement 
these types of fair-chance hiring practices. As a matter of 
fact, my city of Baltimore is one. Major private-sector 
companies, like Walmart, Target, Home Depot, the Koch 
Industries, are also recognizing the benefits of these efforts, 
and they have implemented their own fair-chance hiring 
policies. For that, we should all be grateful.
    For these reasons, I am very pleased to be working with 
Senator Booker on bicameral legislation to bring these policies 
to the Federal Government.
    And so I want to thank all of you for being here today. I 
am eager to learn more about your efforts as we work to turn 
this historic moment into a bipartisan movement.
    With that, I yield back and thank you.
    Chairman Chaffetz. I thank the gentleman.
    I will hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    Chairman Chaffetz. We are also pleased that our colleague 
Representative Sheila Jackson Lee of Texas and, soon to be, 
Representative Steve Cohen of Tennessee--we would ask unanimous 
consent that they be allowed to sit in on today's hearing.
    Hearing no objections, so ordered.
    We will now recognize our first panel, and I am very 
honored that they would set aside their time and come testify 
with us here in the Oversight and Government Reform Committee.
    We are very pleased to have the Majority Whip, the 
Honorable John Cornyn, the United States Senator from the State 
of Texas, who serves on both the Senate Finance and Judiciary 
Committees. He was also a district judge, served on the Texas 
Supreme Court and as Texas Attorney General.
    We have the Honorable Cory Booker, United States Senator 
from the State of New Jersey, a Rhodes Scholar, a law degree 
from Yale, and a very distinguished mayor.
    And we are honored to have you here, Senator Booker, as 
well.
    The Honorable Jim Sensenbrenner serves in the United States 
House of Representatives in the Fifth Congressional District of 
Wisconsin. He is the former chairman of the House Judiciary 
Committee, somebody we have been working very closely with on a 
myriad of legislation, and has a passion for this topic.
    We are also honored to have the Honorable Bobby Scott, 
United State Representative serving the Third District of 
Virginia. We also appreciate your service in the National Guard 
and the United States Army Reserve. Very passionate about this 
topic, very well--works well with other Members of Congress. 
And this particular person, this Representative thanks him for 
the spirit in which he enjoins in this conversation.
    We were also scheduled to have Cedric Richmond, who we were 
hoping to be here. He was invited to be here, was planning to 
be here, but had some mechanical problems with some airplanes. 
And he is going to be sorely disappointed that he was not able 
to be here, but his entire written statement will be entered 
into the record.
    [Prepared statement of Mr. Richmond follows:]
    [For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/criminal-justice-
reform-part-i/
    Chairman Chaffetz. I would ask unanimous consent that we 
waive committee rules and bypass the swearing-in that we 
normally do for all witnesses.
    Without objection, so ordered.
    With that, we would now like to recognize the Majority Whip 
of the United States Senate, Senator Cornyn.

  STATEMENT OF THE HON. JOHN CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Cornyn. Thank you, Mr. Chairman, for holding this 
important hearing. And, Ranking Member Cummings, thank you to 
both of you for allowing me to appear before this important 
committee.
    Congressman Sensenbrenner says I have been issued a 
temporary visa, and the House doesn't tolerate overstays, so I 
will be brief.
    But this is a very, very important subject and a very, very 
important moment, I believe, for our country. How do we reform 
our Federal criminal justice system to increase public safety 
and reduce cost and to give the deserving a second chance?
    Over the last 25 years, we have seen unprecedented 
reductions in crime in the United States for a variety of 
reasons. The nationwide crime wave of the late 1980s and early 
1990s is no more. And we should take a moment to recognize the 
efforts of law enforcement to improve public safety and 
strengthen our communities.
    But that, of course, does not mean our criminal justice is 
perfect or that it doesn't need reform. Far from it. Like 
anything else, the criminal justice system requires occasional 
tune-ups and reforms to ensure that it's working to achieve its 
goals.
    And right now the Federal Government, as you acknowledged, 
Mr. Chairman, spends billions of dollars incarcerating 
individuals while doing little or nothing to address the 
underlying cause or to better prepare them for their eventual 
release into civil society. We can and we must do better.
    As a former attorney general of my State, I am proud to say 
that we have been one of those laboratories of democracy that I 
think has provided a useful model for Congress as we consider 
making changes to the Federal criminal justice system. I 
actually think that is a better way to do it. Let the States 
experiment, and we can learn from that and then generalize it 
to the Nation as a whole, rather than start at the Federal 
level and then have things dribble down to the States.
    But in 2007 Texas lawmakers confronted a problem similar to 
the one facing us today. They had a major budget shortfall, an 
overcrowded prison system, and high rates of recidivism.
    We have always been tough on crime in Texas, but in 2007 
the State leaders decided to get smart on crime. Instead of 
just building more prisons and hoping that would somehow fix 
the problem, they decided to try a different approach, 
scrapping construction plans and instead funding recidivism-
reduction programs aimed at helping lower-risk offenders turn 
their lives around and become productive members of society.
    Texas gave inmates the option of earning time credits to 
spend a portion at the end of their sentence at home or in 
alternatives to incarceration. The results speak for 
themselves. Between 2007 and 2012, our State's overall rate of 
incarceration fell by 9.4 percent. Our total crime rate dropped 
by 16 percent. And we saved more than $2 billion and closed 
three prisons in the process.
    Because of this success with the Texas experience, I am 
proud to join my colleague on the Judiciary Committee, Senator 
Whitehouse of Rhode Island, where similar State-level reforms 
were made in sponsoring something we call the CORRECTIONS Act 
that I know the chairman has been pursuing the analogue here in 
the House. This bipartisan legislation would take many of these 
lessons that we learned in Texas and Rhode Island and apply 
them to the Federal system.
    The CORRECTIONS Act will help restore an important part of 
our criminal justice system, something that we have almost 
forgotten, and that is rehabilitation. When I went to law 
school, I was taught that this was one of the important 
cornerstones of our criminal justice system, that somehow, for 
the deserving, for the ones who actually wanted help learning 
skills and reentering civil society, to help them do so, and 
that it was to their benefit and our benefit that that happen. 
We have almost completely forgotten about that part of our 
criminal justice system, and this legislation would help 
restore that important concern.
    The average Federal prisoner will spend less than 3 years 
behind bars, meaning that almost every offender will one day be 
released. By helping them turn their lives around--and, again, 
not everyone is going to take advantage of this opportunity. 
Not everyone should have the opportunity, particularly high-
risk and super-violent criminals. But if we can, for those who 
deserve the opportunity, low- and medium-risk prisoners, if 
they will take advantage of the opportunity to gain new skills 
and turn their lives around, then we ought to work with them 
and help them to do so.
    So these programs include things like prison jobs programs, 
drug rehabilitation, general education, vocational training, 
life skills management, technical education, mental health 
treatment, faith-based programs, and victim impact courses.
    Mr. Chairman, I will just close with an experience that I 
had recently visiting a Texas prison system. I was viewing some 
of the programs that they were using there, like the ones I 
have mentioned and the ones the CORRECTIONS Act is modeled on. 
But I remember going to a shop class in this Texas prison, 
where the instructor told me that some of the inmates that were 
in his shop class did not even know how to read a tape measure. 
So what alternatives do they have? How prepared will they be 
once they are released from prison?
    So for those low-risk and medium-risk prisoners who want to 
take advantage of the opportunity, we ought to give them an 
opportunity to get a better education, to get better prepared, 
to deal with their drug or alcohol or other addictions, their 
mental health problems. But if we can and they are willing, I 
think we will all be better off.
    It costs $30,000 a year to incarcerate an individual in 
prison and less than $8,000 to keep them on a prerelease 
custody like home confinement and the like.
    So I very much appreciate the opportunity to come here and 
speak to this important committee. I thank you for your 
interest in it. And I agree with the ranking member; this is a 
moment. With the President focusing on this issue, with the 
Senate Judiciary Committee and leading Members like Senator 
Booker in a bicameral, bipartisan way working on this, I think 
we can actually produce something that we can all be proud of 
that will help public safety and help better prepare people 
released from prison to reenter civil society.
    Thank you very much.
    [The statement of Senator Cornyn follows:]
    [For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/criminal-justice-
reform-part-i/]
    Chairman Chaffetz. Thank you, Senator. As is customary, we 
would certainly after your comments excuse you. With the busy 
schedule that we have on both sides of Capitol Hill, we 
appreciate your comments and participation here today.
    With that, we will now recognize Senator Booker.

  STATEMENT OF THE HON. CORY BOOKER, A U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Booker. Good morning, Chairman Chaffetz and Ranking 
Member Cummings. I just want to let you know it is a privilege 
to be able to sit before you today and talk about something 
that is, I think, of the utmost importance to our Nation.
    I want to also just give a lot of gratitude to my 
colleagues in the Senate in both parties who have made this a 
principal priority of theirs, to see reform in this area, 
people like Mike Lee and Senator Cornyn, people like Rand Paul 
and Senator Cruz. These folks have become my friends in a very 
short time in the Senate because of their steadfast commitment 
to these issues.
    I want to just give a lot of gratitude to you, Chairman. 
You also have become a friend through this process and have had 
the courage to stand up on these issues in a way that, to me, 
is inspiring.
    I have heros around me, from Representative Cummings to 
Bobby Scott, Representative Scott, who have been friends of 
mine for a long time and people I look to as beacons of hope in 
the United States Government that could help end what I think 
is a national nightmare.
    In this experience, I have had partnerships now with 
everybody from Mark Holden, who is the Koch brothers' senior 
counsel, to Newt Gingrich to Grover Norquist and a number of 
other organizations, from the Manhattan Institute to even 
people in The Heritage Foundation, who all understand something 
has tragically gone wrong in our Nation in the last 40 years.
    If you were to go back to talk to our Founders and were to 
inform them that a state government actor was going to take and 
seize the liberty of Americans at the extent that we have, that 
the ideal of a limited government would grow so massive and so 
bureaucratic that the lives of so many would be taken into this 
government system where they would surrender their liberty, 
surrender their freedoms, that would be cause enough for a 
revolutionary spirit in America.
    But think about where we are right now. In our Nation, our 
overcriminalization has grown so much that between 75 million 
and 100 million Americans, approaching one in three, have an 
arrest record, overwhelmingly for nonviolent offenses. We are a 
Nation that has so criminalized our culture that we now have a 
challenge. One out of every 142 Americans is now actually in 
prison. One out of every 32 of us is either in prison or on 
parole.
    And that means that 6.7 million adult men and women, about 
3.1 percent of the total U.S. Population, are now nonvoluntary 
members of America's correctional community. Think about this 
size. This is larger than 36 of our united States. If this was 
a State, it would be right behind Massachusetts in total 
population. Our Federal prison population has simply exploded. 
There is no nation on Earth nor ever in the history of humanity 
that has imprisoned this many of its own people.
    In the last 30 years, we have gone astray from where our 
industrial peers are, from a period when we were on par with 
our industrial peers in incarceration to now an explosion of 
over 800 percent over the last 30 years of our Federal prison 
population. In 1980, fewer than 25,000 people were 
incarcerated. Today, that number has increased to over 
209,000--again, which is larger than the population of Salt 
Lake City.
    The growth of our Federal prison population comes at a 
cost. We have seen over the last decades a lack of investment 
in roads and bridges and tunnels; we have seen a crumbling of 
our infrastructure. But yet we have come up with the resources 
to invest in our prison population.
    In infrastructure alone, between the years of 1995 and 
2006, this great Nation, while not repairing roads and bridges 
at the rate that we know we need to, with an infrastructure 
debt of $3 trillion, what we did instead was invest in the 
growth of our prison industry. Between those years of 1995 and 
2006, we built a new prison in this country every 10 days.
    This has been a massive explosion at a cost to taxpayers 
that is simply stunning. Alone, we spend about a quarter of a 
trillion dollars annually on this incarceration. In addition to 
the capital costs, in addition to the infrastructure costs and 
the investment, this has drained our Treasury and hurt the 
American people.
    Senator Booker. But the pain is beyond the dollars and 
cents. The pain is really in the impact it is having on our 
country as a whole. It is estimated that the U.S. poverty rate 
between 1980 and 2004 would have been 20-percent lower if not 
for mass incarceration.
    All this conversation in a bipartisan way about poverty, 
but we know that without this overincarceration we could have 
reduced poverty rates 20 percent. Why? Because when we 
incarcerate people, overwhelmingly for nonviolent offenses--74 
percent of our imprisonments are nonviolent offenses--we then 
saddle those people when they are out of prison with 
economically crippling collateral consequences.
    The American Bar Association identified 46,000 collateral 
convictions that we place upon individuals for nonviolent 
crimes. Some of those are crimes that present and past 
Presidents have admitted to doing. We now have a Nation that, 
if you come out with a nonviolent drug offense, you can't get a 
loan from the bank, you have difficulty getting a job, 
difficulty getting a Pell grant, business licenses are denied 
you. Forty-six thousand limitations on your liberty and freedom 
that undermine your ability to produce economically.
    We now know that poverty is a reality, and this is one of 
the root causes. But also a report from the Center for Economic 
Policy and Research concluded that, once released from prison, 
that ex-offenders' prospects for being employed are 
dramatically decreased. In 2008 alone, ex-offender employment 
losses to our economy, their productivity that would have 
contributed to us all, was the equivalent of 1.5 million to 1.7 
million workers, costing us $57 billion to $65 billion 
annually.
    That cost of putting a prisoner in jail of $29,000 a year, 
which is often quoted, does not capture the crippling impact 
this has had on our economy, driving poverty and limiting our 
GDP.
    Our Nation has not reached its full potential, it has not 
elevated those ideals of freedom and liberty, if we cannot 
address this problem. With just 5 percent of the globe's 
population but one out of four human beings in prison on Earth 
being here, this is a self-inflicted wound which is not 
necessary.
    I spent almost 8 years of my life as the mayor of a big 
city. The number-one issue--the number-one issue--my pollsters 
who worked for other mayors and in other States said they never 
saw a single-issue community like ours--was public safety. 
There is nobody in Congress who has more of an urgency to stop 
crime in this country than I do. I go home still to Newark, New 
Jersey, living in one of our Nation's poorer census tracts, and 
still have people talk to me about this issue.
    But there is a consciousness and an understanding that what 
happens to our country when we incarcerate people is we often 
return them to our streets more dangerous and more likely to go 
into crime because we are cutting off their opportunities--but 
also because of who we incarcerate.
    We in this Nation, if you examine our jails--and, as I talk 
about the cost of prisons, please understand there are 19 times 
the admissions of Americans into our jail systems than there 
are to our prison systems. And, overwhelmingly, the people we 
put in jail are people with mental health challenges, are 
people with addictions, are people who remain in jail often 
just because they are poor. We think we have gotten rid of 
debtors prison, but it is alive and well in our Nation. And 
there are people that are disproportionately minorities. When 
they get out, our system is not treating their addiction, not 
focusing on their mental health challenge. Our systems often 
put them in a position where those problems and challenges are 
even more aggravated.
    And, in fact, we engage in practices in prisons and jails 
that actually make people far more dangerous. The routine 
practice, especially for juveniles, of putting them in solitary 
confinement is considered by many torture. Other nations have 
banned the practice. But yet we do things that actually hurt 
and traumatize children and young adults, putting them back on 
our streets, often more likely to have encounters with the law 
or, worse, to engage in crime or violent crime.
    We have a situation in our country that is out of control, 
but it does not have to be, because there are models all around 
our Nation--especially exciting are ones in red States--that 
have moved far ahead of the Federal system and have shown us a 
way. From Georgia to Texas, we are seeing that you can 
massively reduce your prison population and reduce crime at the 
same time, relieving taxpayers of this burden, affirming ideals 
of liberty, addressing racial disparities in incarceration, and 
empowering the local economies.
    We cannot have a Nation where we are raising children of 
incarcerated adults, which is happening now. One in 125 
American children had an incarcerated parent. One in nine black 
children have an incarcerated parent now.
    And please understand, that has a generational consequence 
to it. Right now, we know that with 2.7 million American 
children who have a parent behind bars that that impact on them 
is significant. A child with an incarcerated father is more 
likely to be suspended from school than a peer without an 
incarcerated father, 23 percent compared to 4 percent. Data 
from the Economic Mobility Project finds that a parent's income 
is one of the strongest indicators of a child's economic 
mobility. Forty-two percent of children who start at the bottom 
fifth of income distribution brackets will stay there. Children 
who have parents that are removed from them that end up in 
foster homes, children that have an incarcerated parent are 
more likely to go to prison themselves.
    I want to conclude to say that there has to be an urgency 
on this problem, and we can't fall into solutions that actually 
aggravate what is going on. Whether it is the desire to add 
more mandatory minimums, further take away our justice system 
from what Americans imagine it to be, with judges, to the 
justice system we have now, where 98 percent of criminal 
convictions are done by plea bargain.
    We need to have solutions to this problem that do not 
aggravate racial disparities, like basing earned time on static 
offenses, when we know that African Americans and whites have 
no difference, for example, in marijuana use but are convicted 
or arrested for it about 3.7 times longer.
    Our solutions to this problem must work against ideals of 
vengeance and retribution and focus now on justice and 
fairness. They must not do more harm to individuals put into 
the system--aggravating racial bias, the disease of addiction, 
and mental illness. Instead, our system must be about 
rehabilitation, recovery, healing, and empowerment.
    There is a way forward, and I am hoping that this great 
Congress, this august body, that believes in freedom and 
liberty, that understands the basic values of limited 
government, that we will as a Nation embrace the solutions we 
already see working and that the Federal Government can catch 
up and, indeed, lead to a day where the liberties of its people 
are not surrendered in a way that is so out of step with our 
values and the rest of the world.
    Thank you, Chairman.
    [Prepared statement of Senator Booker follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/criminal-justice-
reform-part-i/
    Chairman Chaffetz. Thanks, Senator. We do appreciate it.
    We are now pleased to hear from Chairman Sensenbrenner.
    Chairman, you are now recognized.

     STATEMENT OF THE HON. F. JAMES SENSENBRENNER, JR., A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF WISCONSIN

    Mr. Sensenbrenner. Thank you.
    Good morning, Chairman Chaffetz, Ranking Member Cummings, 
and members of the committee. Thank you for the opportunity to 
testify in support of criminal justice reform.
    And thank you, Mr. Chairman, for holding these discussions 
and for your extensive work on prison reform.
    I am proud to be joined today by Representative Bobby 
Scott, whom I have had the pleasure of working with on the 
House Judiciary Committee's Over-Criminalization Task Force.
    Beginning in the spring of 2013, Representative Scott and I 
thoroughly examined issues relating to the scope of mass 
incarceration, the dramatic growth of the Federal criminal 
code, and evidence-based programs for reform. We heard from 
groups and organizations as diverse as Families Against 
Mandatory Minimums, Right on Crime, Heritage Foundation, and 
the ACLU, all of whom recognized the need to respond to reduce 
the size and cost of Federal corrections policies.
    Over the past three decades, America's Federal prison 
population has more than quadrupled, from a half-million in 
1980 to more than 2.3 million today. Prison spending has 
increased by 595 percent, a staggering figure that is both 
irresponsible and unsustainable.
    And yet this increased spending has not yielded results. 
More than 40 percent of released offenders return to prison 
within 3 years of release, and in some States recidivism rates 
are closer to 60 percent. Several studies have found that, past 
a certain point, high incarceration rates are counterproductive 
and actually cause the crime rate to go up. Especially among 
low-risk offenders, long prison sentences increase the risk of 
recidivism because they sever the ties between the inmate and 
his family and his community. These are the ties we need to 
help reintegrate offenders as productive members of our 
society.
    These severed ties are also at the heart of the moral case 
for reform. It is not just the people in prison who are paying 
the punishment for their crimes. Mass incarceration tears 
families apart and deprives children of their fathers and 
mothers. It likely means the loss of a job, possibly a home, 
and any support he or she had within the community.
    And that is where we are with our sentencing policy. We are 
spending more, getting less, and destroying communities in the 
process. The system is broke, and it is our job to fix it.
    Fortunately, there is a better way. In recent years, 27 
States, particularly conservative red States, have enacted 
substantial criminal reforms to their criminal justice systems. 
Cumulative cost savings have exceeded $4.6 billion. Many of the 
States have seen a corresponding drop in crime. Their 
experience proves that we can reform the criminal justice 
system without compromising public safety.
    This brings me to the SAFE Justice Act. The SAFE Justice 
Act brings together some of the best ideas from the States and 
current proposals. It addresses both the front and back ends of 
our criminal justice system, but it does so in a targeted way 
rather than across-the-board cuts. It is an evidence-based 
approach that draws heavily from the successes of numerous 
States which have led the Federal Government in adopting 
comprehensive reforms.
    Among other things, the SAFE Justice Act will: first, rein 
in rampant overregulation by Federal agencies by forcing 
reviews of regulations with criminal penalties; second, focus 
drug mandatory minimums on leaders, managers, supervisors, and 
organizers of drug trafficking organizations rather than low-
level offenders; third, incentivize completion of evidence-
based prison programming and activities through the use of the 
earned time credit; fourth, improve government accountability 
by charging the Department of Justice and the Bureau of Prisons 
with collecting key outcome performance measures; and, fifth, 
provide law enforcement with critical tools to help keep 
communities safe by expanding access to training and safety 
equipment and health and wellness.
    Our system cannot continue on its current trajectory. It is 
not only fiscally unsustainable but morally irresponsible. Now 
is the time for criminal justice reform, and the SAFE Justice 
Act delivers the change necessary to enact fairness in 
sentencing, reduce the taxpayer burden, and ensure increased 
safety and prosperity of communities across the country.
    As a critical step in this direction, I hope the committee 
will appreciate the thoughtful, evidence-based policy options 
we have put forward. And it is my hope that Congress can 
continue to work in a bipartisan, bicameral manner to advance 
this comprehensive legislation.
    Thank you for hearing me out.
    [Prepared statement of Mr. Sensenbrenner follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/criminal-justice-
reform-part-i/
    Chairman Chaffetz. Thank you, Chairman. We appreciate your 
leadership on this issue.
    I will now recognize the gentleman from Virginia, 
Representative Bobby Scott.

STATEMENT OF THE HON. BOBBY SCOTT, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Scott. Thank you, Mr. Chairman. I want to thank you and 
Ranking Member Cummings for including me in today's hearing.
    Mr. Chairman, in both the Judiciary Committee and Oversight 
Committee, your commitment to improving the Federal criminal 
justice system has been a major factor in leading us to examine 
accountability-based approaches to rein in soaring costs. And, 
as you mention, that is particularly in light of the low 
returns on our investments. And your work in prison reform to 
reduce recidivism has certainly been extremely helpful.
    Ranking Member Cummings has similarly led the way in 
ensuring that our law enforcement officers and communities they 
serve receive the resources and support they need to work 
collaboratively with crime prevention, intervention, and 
reentry policies.
    Unfortunately, Mr. Chairman, rather than this rational, 
thoughtful approach, too many politicians across the country 
have chosen to play politics with crime policy by enacting so-
called tough-on-crime slogans like, ``Three strikes and you're 
out,'' or rhymes like, ``You do the adult crime, you do the 
adult time.''
    As appealing as these policies may sound, their impact has 
overloaded our prisons to the numbers that have already been 
given and also to the point where some recent studies have 
concluded that our overincarceration is actually 
counterproductive, destroying so many families, wasting so much 
money, having so many people with felony records, meaning that 
it generates more crime than it stops.
    We know that we have a problem. And so, faced with 
overcrowding prisons, no reduction in recidivism, and wasted 
money, Chairman Sensenbrenner and I were chosen unanimously by 
our colleagues on the House Judiciary Committee to lead the 
Over-Criminalization Task Force to actually do something about 
it.
    The task force undertook a comprehensive review of Federal 
legislation--charging, sentencing, and reentry policies. It 
applied the work of the States which have implemented 
bipartisan, evidence-based reforms that have reduced 
overcrowding and taxpayer spending while preserving, even 
increasing, public safety.
    Over the course of a year and a half and 10 hearings, the 
task force heard from key stakeholders, including the 
Department of Justice, the Federal Public Defenders, the 
Judicial Conference, and the Sentencing Commission, as well as 
academics and expert organizations from The Heritage Foundation 
to the ACLU.
    As the task force consensus work product, we introduced the 
bipartisan SAFE Justice Act, which improves safety and saves 
money by applying State-tested, evidence-based approaches to 
diversion sentencing, recidivism reduction, rehabilitation 
programs, reentry, and supervision.
    During the inception and duration of the task force, my 
colleague Mr. Sensenbrenner and I were not interested in 
playing politics with crime policy. We did not conduct polls to 
measure the popularity of slogans and sound bites that the bill 
could generate. To the contrary, we focused our work on 
examining evidence-based approaches that increase safety, 
accountability, fairness, and efficacy, including ones 
successfully implemented on the State level.
    Now, 32 States have already reduced both their crime rate 
and imprisonment rate over the past 5 years, including Texas, 
Wisconsin, Rhode Island, Georgia, South Carolina, New York, 
resulting in a cumulative cost savings exceeding $4 billion. 
They have reinvested in prison alternatives better at breaking 
the cycle of recidivism. And, today, research-based, State-
tested, and community-based approaches enjoy support from 
Democratic and Republican Governors. Many have branded their 
approach as, ``right on crime.''
    To address this crisis, the bill begins by focusing on 
prevention and early intervention. We need to put evidence-
based, cost-effective approaches into crime reduction at the 
community level.
    First, we can invest in law enforcement at the local, 
State, and Federal level. Data show that it is not the length 
of the sentence that deters crime but the certainty of being 
caught. We must invest in more law enforcement officers and 
correction officers, increasing their pay, reimbursing them for 
pursuing advanced degrees that aid in the performance of their 
duties. We have to improve officer safety by ensuring they have 
bulletproof vests, pepper spray, and lightweight hemorrhage 
kits to ensure that they return home to their families at the 
end of their shifts. Implementing a National Blue Alert system 
to ensure a swift and certain response when one of our officers 
is killed in the line of duty is also necessary and long 
overdue.
    Now, the bill also improves public--this will also improve 
public safety and community trust. More law enforcement 
officers means greater opportunities to focus on community-
based policing. Law enforcement officers play a critical role 
in putting evidence-based and cost-effective approaches to 
crime prevention, intervention, and reduction into play at the 
community level when have you full community involvement.
    As lawmakers, we must engage community leaders, ranging 
from law enforcement to educators to health and mental health 
agencies, social service providers, including faith-based and 
community organizations, to identify the community needs with 
regard to youth and gang violence prevention and develop 
comprehensive plans to address these needs.
    Research has demonstrated that having a representative 
police force and investing in things like police athletic 
leagues and other programs that builds strong community ties 
not only will lower the crime rate and allegations of racial 
profiling but will cultivate trust, build mutual respect and 
fairness, and improve the working relationship between the 
officers and the communities they serve.
    Turning to criminal law, the Federal Government has added 
more than 4,500 new criminal penalties over the past few 
decades, many of which lack proof of mens rea, or criminal 
intent, which means that many people are prosecuted when they 
did not even know they had committed a crime.
    It has gotten so far out of hand we do not even have an 
accurate count of how many Federal crimes there are. In fact, 
our appetite for overcriminalization has swept in many types of 
conduct which have historically been punished at the State 
level or with a fine or civil punishment.
    It is also clear that we have to stop bringing State crimes 
and civil infractions into Federal court. Why should carjacking 
be a Federal crime? And can't some of the regulatory crimes be 
sanctioned with civil fines rather than criminal convictions?
    Once in court, our bill creates a Federal problem-solving, 
evidence-based court programs, such as drug courts, mental 
health, substance abuse, and veterans court programs, to divert 
nonviolent, low-level, first-time offenders from prison. 
Research has shown that providing these types of offenders with 
the help they require and addressing the underlying issues that 
led them to violate the law provides a much greater return on 
investment than just simply locking them up.
    The bill also reforms our sentencing laws. As my colleague 
Mr. Sensenbrenner discussed, this is yet another area in which 
the States have led the way, particularly in mandatory minimums 
in the drug context.
    As of fiscal year 2014, approximately two-thirds of 
convicted drug offenders who were convicted of offenses in 
Federal court were convicted of offenses carrying a mandatory 
minimum of some sort, even though data from the Sentencing 
Commission tells us that a vast majority of them are the 
lowest-level, nonviolent offenders, not the kingpins or leaders 
for whom these penalties were intended. Our bill restores the 
original congressional intent on these penalties and applies 
the evidence-based approach from the States.
    Once an individual is sentenced to prison, the bill ensures 
that time spent in prison is rehabilitative and will aid 
offenders in successfully reentering society. Following your 
work, Mr. Chairman, on prison reform, Chairman Sensenbrenner 
and I incorporated that work into the SAFE Justice Act as one 
of the key pillars.
    The research shows that providing incentives to inmates to 
complete educational, vocational, substance abuse, mental 
health, and traditional programs will help reduce both 
recidivism and the amount of money spent on the Federal prison 
system. State experience and data also show that unless and 
until we invest in research-based methods to address underlying 
issues we cannot be surprised if the cycle of recidivism 
continues.
    Finally, by changing the incentives and motivation for 
offenders on supervised release, we can ensure that swift and 
certain sanctions for violations are handled accountably and 
effectively. Unnecessarily and often counterproductive 
incarceration is exchanged with other kinds of penalties. We 
know that if you revoke someone and send them to prison you 
destroy whatever progress they have made in their 
rehabilitation. Moreover, by measuring the recidivism rates of 
the halfway houses and probation officers nationwide, we can 
hold these facilities and officers accountable for their role 
in reducing risk factors for recidivism.
    And, Mr. Chairman, as I have indicated, the provisions of 
this bill will save money and reduce crime. All of the new 
initiatives will be funded by the cost savings, so the bill can 
essentially pay for itself.
    So I look forward to continuing the work of you, Mr. 
Chairman and the Ranking Member, Mr. Cummings, on moving this 
bipartisan bill forward. It incorporates the work of the Over-
Criminalization Task Force. The bill has strong bipartisan 
support because it reduces crime and saves money by investing 
in crime prevention, reducing the overreach in the Federal 
criminal code, improving policing, reforming sentencing, 
improving rehabilitation in our prisons. And it will reform our 
criminal justice system into one that is safe, accountable, 
fair, and effective.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Scott follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/criminal-justice-
reform-part-i/
    Chairman Chaffetz. Thank you.
    I thank the two House Members and the two Senators for 
their good work and their insight today.
    We are going to go into recess for 5 minutes while we reset 
for the two Governors who will be joining us. We stand in 
recess.
    [Recess.]
    Chairman Chaffetz. The committee will come to order.
    We are pleased to have our second panel of distinguished 
witnesses. These are Governors who have actually put actions in 
place in their States and are making a real difference in their 
States. It has been notable that we have seen that and heard 
that at the State level and that has percolated up here into 
Congress. We are honored that they would take the time and make 
the effort to provide their expertise here with us today.
    We are pleased and honored to have the Governor of the 
State of Delaware, the Honorable Jack Markell. We are also 
pleased to have the Honorable Robert Bentley, the Governor of 
the State of Alabama.
    And, at this time, I would actually like to yield to the 
Congressman from Alabama, Mr. Gary Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    It is a distinct pleasure to introduce the Governor of the 
great State of Alabama, Dr. Robert Bentley.
    Dr. Bentley had a distinguished medical career as a 
dermatologist in Tuscaloosa, taking care of many of the 
University of Alabama coaching staff, and served in the State 
legislature from 2002 to 2010, at which time he was elected 
Governor of the State of Alabama.
    It is a pleasure to have you here, sir.
    And I yield back.
    Chairman Chaffetz. Thank you.
    We again thank you both for being here.
    I am going to ask unanimous consent that we waive the 
committee rules for the swearing-in.
    Without objection, so ordered.
    We again appreciate your testimony here today.
    Governor Bentley, we will start with you and recognize you 
for your opening statement.

              STATEMENT OF THE HON. ROBERT BENTLEY

    Governor Bentley. Good morning. Chairman Chaffetz and 
Ranking Member Cummings, Congressman Palmer--and thank you for 
that introduction--and members of the committee, thank you for 
inviting me to speak on behalf of the people of Alabama.
    Since I took office in 2011, prison reform has been a 
priority. It is not a topic that you often hear a Republican 
Governor talking about, but, as the leader of Alabama, it 
desperately needed my attention.
    The number of inmates incarcerated in Alabama's prisons has 
significantly increased over the past two decades. Alabama's 
prison system is currently at 195-percent overcapacity, housing 
nearly 25,000 inmates in facilities designed to hold 
approximately 13,000. Our officer-to-inmate ratio is 10 to 1--
this is twice the national standard--which creates difficult 
conditions for officers who work to maintain order inside the 
walls of Alabama's 28 prisons.
    In June of 2014, Alabama launched the Justice Reinvestment 
Initiative. The JRI is a partnership between the Department of 
Justice Bureau of Justice Assistance and the Pew Charitable 
Trusts. With support from the Council of State Governments, the 
goal of JRI is to generate savings that States can reinvest in 
strategies that will increase public safety while holding 
offenders accountable for their crimes.
    Over the course of a year, the Alabama team, composed of 
more than 30 experts, examined data, reviewed laws, and met 
with stakeholders to conduct a comprehensive analysis of our 
State's criminal justice system. Some areas included prison 
admissions and length of stay, corrections and parole 
processes, community corrections, and recidivism rates.
    The team developed recommendations for the 2015 legislative 
session, and we passed important criminal justice legislation 
into law. Alabama's legislation includes policies to strengthen 
community-based supervision, to prioritize prison space for 
those who have committed violent crimes, and promote services 
and treatment for people receiving treatment and supervision in 
the community.
    The legislation is expected to reduce the State's prison 
population by more than 4,200 people in the next 5 years and to 
avert more than $38 million in future costs for prison 
construction. It also is to provide for supervision of 3,000 
more parolees. America is a great place for second chances, and 
this legislation helps those paroled with the tools necessary 
for a successful second chance at life.
    This historic legislation would not have been possible 
without two of our Alabama legislators, who worked extremely 
hard on this legislation, State Senator Cam Ward and State 
Representative Mike Jones, who is with me here today. I want to 
publicly thank them for all the hard work that they did and 
their partnership towards this prison reform.
    The JRI process and the legislation passed in 2015 are 
major steps towards prison reform.
    A few weeks ago, I created the Alabama Criminal Justice 
Oversight and Implementation Council to further our reform 
efforts. The council is charged with implementing this 
legislation. Specifically, the council will develop policies 
and guidelines for treatment programs in community correction 
programs. It will coordinate ongoing meetings with criminal 
justice stakeholders to help those involved in reform efforts. 
And, finally, it will provide leadership to ensure money is 
spent wisely and effectively.
    In Alabama, we have taken meaningful action to improve our 
criminal justice system and have chosen to no longer conduct 
business as usual with our prisons. The old adage of ``lock 
them up and throw away the key'' isn't effective for those 
being sent to prison or those who have to operate a prison.
    States can be laboratories for change, creating unique 
opportunities that can better address a problem. I believe that 
Alabama can be a model for prison reform for the rest of the 
Nation.
    I want to thank you for letting me be here with you today, 
to testify before you. And in a few minutes, I will be happy to 
answer some questions.
    [Prepared statement of Governor Bentley follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/criminal-justice-
reform-part-i/
    Chairman Chaffetz. Thank you, Governor.
    Governor Markell, you are now recognized.

            STATEMENT OF THE HONORABLE JACK MARKELL

    Governor Markell. Well, Chairman Chaffetz and Ranking 
Member Cummings, thank you for inviting me to be a part of 
today's discussion about one of the most important areas in 
which our laws have to change so that we can maximize 
opportunity for all of our citizens and for the country.
    And I want to thank Governor Bentley for speaking out about 
these issues.
    And I want to thank the Obama administration for 
spotlighting these issues this week as well.
    Before I tell you about our corrections system today and 
about the policies we are pursuing and must pursue in Delaware 
and across the country, I think it is helpful to start with a 
few key facts. Less than 25 years ago, there were fewer than 
700,000 people that populated the entire State and Federal 
Prison System in our country. By the end of the last decade, 
700,000 was the number of people that we were releasing from 
that system in 1 year. And our prisons, as Governor Bentley was 
talking about, are over capacity.
    Ninety-seven percent of the people in our prisons are 
coming out, and as they reenter our communities, the reality of 
stubbornly high rates of recidivism set in. That impact is most 
severe in our minority communities. The number of African 
American men with a criminal record approaches 80 percent in 
some major cities across the country. About 6 out of 10 inmates 
in Delaware are persons of color.
    And once we have sent them to prison for the first time, 
often for a nonviolent offense, many of them are locked out 
from meaningful employment for the rest of their lives. 
Consider the impact of that on their families and their 
communities.
    And, finally, corrections costs have skyrocketed across the 
country. In Delaware, we spend more than $270 million a year 
annually, which is about $36,000 per year for every 
incarcerated adult.
    Now, keeping people safe must be a top priority of any 
government. And there are those who belong behind bars, and it 
is worth every penny that we spend to keep them there. But the 
most expensive solution is not always the smartest solution, 
and this is particularly the case for nonviolent offenders and 
for individuals challenged with addiction who need treatment 
more than they need a prison cell. It is especially the case 
for defendants and probationers whose infractions, like missing 
appearances and appointments, mark them as irresponsible but 
not dangerous.
    So before making decisions about criminal justice 
investments, we have got to ask ourselves, will this make our 
community safer, and is this the best investment for 
prosperity? We have an opportunity, but we also have a moral 
and economic imperative to implement practical solutions to our 
corrections challenges.
    Now, in Delaware, with the support of a bipartisan group of 
legislators, we have begun to shift to a new approach that is 
driven by our complementary goals of making better use of our 
corrections resources and making it more likely that ex-
offenders will contribute to society rather than re-offend. It 
starts in Delaware, as Governor Bentley mentioned, with the 
Justice Reinvestment Act. I signed it in 2012. And that was 
designed to help ensure that we treat those who enter our 
criminal justice system in the most effective way.
    For example, our courts now use a risk-assessment tool to 
identify defendants who are good candidates for pretrial 
release or community-based supervision. You know, remaining in 
the community enhances a defendant's chances of success in the 
long term. And over the last 12 months, our population in 
custody has dropped by 3 percent, mostly among pretrial 
detainees.
    Most offenders in Delaware are being assessed for both risk 
and need when they enter custody. In cooperation with George 
Mason University, we are implementing a risk-needs tool. And 
that assesses the offender's risk and need level, and it 
matches the offender with an appropriate level of intervention. 
And our goal is to extend this assessment to every person in 
detention so that services, especially those for mental health 
and substance abuse, are available immediately, even before 
trial.
    In addition, the law allows judges to use a risk and needs 
assessment as a factor in sentencing, and it allows offenders 
to reduce their sentences by completing programs that are 
proven to reduce recidivism. That provides an incentive for 
successful completion of these programs, which place offenders 
back in the community when they are prepared for reentry.
    And one of the first steps that I took as Governor upon 
entering office in 2009 was to create what we call IADAPT, 
Individual Assessment, Discharge, and Planning Team. It is a 
multi-agency reentry program. There are five executive branch 
agencies: Department of Corrections, Labor, Education, Health, 
and Social Services, and Housing. They came together to share 
information on offenders to create an individualized reentry 
plan that includes employment support, healthcare, and housing.
    Now, the help that the offenders receive is really very 
practical. They are enrolled in Medicaid, if eligible. They are 
provided with identification documents and transportation 
vouchers. And they are connected to people that they can rely 
on for support as they seek housing and employment. Now, we 
know that employment status is one of the best indicators of 
whether somebody is going to re-offend, so we have got to give 
ex-offenders a fair opportunity to earn and to keep a job.
    So even seemingly small steps can make a big difference. 
For example, in Delaware, we passed bipartisan legislation to 
eliminate mandates that cause nonviolent offenders to lose 
their driver's license, even when their crime isn't related to 
driving. So, in other words, previously, many offenders, even 
if their crime had nothing to do with driving, they could not 
get their driver's license when they came out. And we wanted to 
ensure that they can travel to and from work.
    And as a result of a change in that law, nearly 800 
nonviolent offenders each year are having their driver's 
licenses returned after being released. We have also eliminated 
the automatic suspension of driver's licenses for Delawareans 
who fail to pay fines for minor traffic offenses and who do not 
pose a traffic safety hazard.
    Everybody should work to pay back what they owe, but it is 
in everybody's interest to keep people safely on the road with 
a valid license and registration and insurance as they work to 
put their lives back on track. In addition, our Department of 
Corrections now can hire ex-offenders into a job training 
program so that they can have paid job experience while they 
seek permanent employment after they are released.
    And in a time of incredibly and historically tight budgets, 
we have invested in a culinary arts program and an automotive 
service program, two areas where we know that jobs are 
available for trained individuals, and the industry is 
welcoming to ex-offenders.
    And we have also banned the box on State job applications 
so that more than 2,000 ex-offenders who apply for State jobs 
have a better shot at employment. State hiring can still 
involve background checks, but it is important that these 
individuals no longer have to check a box on job applications 
because that practice too often denies them a fair chance to 
interview at the beginning of the process.
    Now, embracing the future of our criminal justice system 
also means recognizing that many offenders suffer from 
addiction. Seventy-one percent of the men arrested in 10 U.S. 
cities in 2011 tested positive for an illegal substance. No one 
should be behind bars because of a lack of services in their 
community.
    We are expanding services for those struggling with 
substance abuse disorders and no longer relying on a one-size-
fits-all treatment model. Instead, we are better addressing 
individual needs in our State by expanding sober-living 
residential beds and increasing services geared to young people 
while also focusing on education and prevention.
    And one innovative Delaware program is called New 
Expectations, which serves pregnant women who need substance 
abuse disorder treatment. And we realize that too many pregnant 
and addicted women were in correctional custody because of a 
lack of community services. So, literally, judges were being 
assigned, being sentenced to prison, pregnant women were being 
sentenced to prison by judges because the judges believed that 
was the safest place for them to deliver their babies.
    While working with our corrections' health provider, we 
created a community-based group home where pregnant and new 
mothers can receive treatment, can gain parenting skills, and, 
most important, form strong bonds with their babies. And for 
these mothers and babies, the opportunity to remain together in 
a supportive and sober environment may make all the difference.
    I want to make one last point before I close. Whatever 
structural changes we put in place, we believe we must also 
change the hearts and minds of the public about who offenders 
are and what they can offer the community. And to that end, we 
have undertaken what we believe are some creative efforts to 
bring the community closer to the prison system by literally 
bringing them inside.
    So the Mid-Atlantic Wine and Food Festival hosted a dinner 
that was prepared by women in our culinary arts program working 
alongside leading local chefs and was served inside the prison 
facility. And it was a remarkable experience to see those 
inmates working alongside and learning from the skilled chefs 
who came inside and sitting at the same table with the guests.
    At the end of this month, TedxWilmington, which is our 
local TED talk, will be held inside the women's prison. And 
during the day, six women will present their stories alongside 
other speakers from around the community. And they are being 
coached by a local business leader who has already given a TED 
talk. And for the last 3 years, women attorneys and judges have 
hosted a day-long event inside the women's prison for more than 
100 offenders with activities, classes, lunches, and a keynote 
speaker.
    And our culinary arts and automotive training program that 
I mentioned a few moments ago in the men's facilities also 
engage in outreach to employers while the men are still 
incarcerated. And we changed the law so that ex-offenders could 
be employed in the prison programs they graduated from while 
they seek permanent employment in the community.
    Now, we should be under no illusion about the difficulty of 
these tasks. The individuals who will be directly impacted by 
the policy changes I have talked about have made very poor 
choices, and their situations are usually not at the forefront 
of the public's consciousness. These issues will fade into the 
background, unless we realize the difference that we can make 
in the lives of offenders and the benefits that we can achieve 
for society as a whole.
    But we can't afford and we can't tolerate the status quo 
any longer. And I am hopeful that, with an increased bipartisan 
and national commitment to addressing the inequities and 
efficiencies and unproductive policies of our criminal justice 
system, we can look forward to a lot of progress ahead.
    And I really do thank you for the focus that you are 
putting on these issues and for the opportunity to join you 
today.
    [Prepared statement of Governor Markell follows:]
    [For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/criminal-justice-
reform-part-i/]
    Chairman Chaffetz. Thank you, Governor. Do appreciate it.
    We will now recognize the gentlewoman from Wyoming, Mrs. 
Lummis, for 5 minutes.
    Mrs. Lummis. Thank you, Mr. Chairman. And thank you for 
hosting this hearing. It was really enlightening to hear from 
the first panel because there is so much underutilized talent 
in the Congress of the United States, in both the House and the 
Senate. And so I was so pleased that you had Members of the 
House and the Senate who have been working on these issues at 
length here to testify.
    I also want to thank the Governors for attending. Our 
States are the great incubators of innovation, and the best 
ideas percolate down to Washington from the States that really 
are at the top of the pyramid in terms of the way the Founding 
Fathers envisioned our country operating. So you are at the 
forefront of innovation in public policy.
    Thank you for being here, with a special hello to Governor 
Markell, with whom I served as State treasurer. So there is a 
bit of a reunion this morning.
    Governors, I would like you to comment on the proliferation 
of Federal crimes that used to be State-based crimes and how 
they have provided difficult interactions between Federal 
authorities and State authorities. I would also like you to 
both comment on mandatory minimum sentencing laws at the 
Federal level.
    And, again, thank you both for being here and for the work 
you are doing in this area.
    Governor Bentley. Well, let me say, the mandatory Federal 
sentencing does make it difficult, obviously, when some crimes 
seem to be not what you think they are. I mean, they are at a 
level that you think there is no discretion. So there is very 
little discretion. We do not deal a lot--personally on the 
State level--we do not deal a lot with the Federal crimes 
situation other than we deal a lot with drug situations.
    And we just recently, in Alabama, had a problem with our 
prescription drug abuse, and we worked very closely with the 
Federal Government in really shutting down doctors who are drug 
dealers. And so we have had instances there.
    We also run into problems. You know, the Federal Government 
comes in, and we recognize that when we did that and shut down 
the doctors, we had 6,000 patients who did not have doctors and 
who needed drugs. And, you know, sometimes the enforcement does 
not look at the people, and they do not look at the patients. 
And me being a physician, we recognize this and so we took care 
of the situation.
    But, you know, we do cooperate with the Federal Government. 
Sometimes the Federal Government does not want our cooperation, 
and we just have to sometimes do things without the Federal 
Government. But this was kind of the case in this situation 
where we were trying to close down some of the drug mills.
    You know, some of the Federal authorities did not want the 
State involved in it, but we are the ones on the ground. We are 
the ones that deal with it the most. But, you know, the 
mandatory sentencing is a real problem on the Federal level, 
but, you know, since I can't comment on that as much as 
certainly we can what we do on the State level.
    Governor Markell. If I could make just a couple points. 
First, I have not heard a lot from our prosecutors about the 
conflict that you alluded to in the first part of your 
question. We can check with our Department of Justice, and I 
will get back to you on that.
    I will say, we are extraordinarily appreciative of the 
resources available from the Federal Government working in 
partnership with our law enforcement agencies, you know, 
generally. They have been really, really helpful, and I am 
grateful to our congressional delegations, Senator Carper, and 
Senator Coons, and Congressman Carney, for that help.
    On the minimum mandatory piece, one of the reasons that I 
was so encouraged that you are having this hearing today and 
inviting Governors in because I think this is an area where we 
can learn from each other. And back in 2011, we revised 
Delaware's drug sentencing laws to relax minimum mandatories to 
reduce penalties for small amounts of drugs and enhance 
penalties for violent offenders.
    This is the kind of issue where the people that we all 
serve do not really care if something is a State issue or a 
Federal issue. They just want safe communities, and they want 
to make sure we are all working together to make sure that more 
folks in our States can live up to their potential. So I am 
hopeful this is something that we can work on together.
    Mrs. Lummis. Thank you both for being here.
    I had also been general counsel to our Governor at one 
point, so I was very well aware of the important innovations 
that are occurring at the State level.
    Gentlemen, you are at the tip of the spear, and thank you 
kindly for being here.
    Thank you, Mr. Chairman, for holding this hearing. I yield 
back.
    Chairman Chaffetz. Thank the gentlewoman.
    I now recognize the ranking member, Mr. Cummings, for 5 
minutes.
    Mr. Cummings. I want to thank both of you for being here. 
Most important of all, I thank you for your leadership.
    As I was sitting here, I could not help but think about my 
oldest brother, who is a public defender. And he was telling me 
on Sunday that he has now seen three generations of criminals 
in the same family. And, you know, I was just thinking about 
the things that you were saying, and I want you to understand 
that the things you are doing is not going to save everybody, 
but it is going to make a difference in somebody's life for 
generations--for generations. When we are dead and gone, some 
family is going to be better off because of what you are doing.
    Governor Bentley, you mentioned two legislators. You said 
they were here, but I do not know who they are. Having been a 
former State legislator, I would like to give some recognition. 
I would like to at least know who they are. Can they raise 
their hands?
    Governor Bentley. Representative Mike Jones is with me. 
Senator Cam Ward could not be.
    But Representative Jones, raise your hand there.
    Mr. Cummings. All right. Thank you.
    Governor Bentley. He has done a fantastic job. He ushered 
through the house our initiative that we have passed and we are 
going to fund. We are working on that right now. We have a 
special session to fund it. But, you know, they have done a 
fantastic job.
    Mr. Cummings. I have noticed over my 33 years of being in 
the State legislature and now in the Congress that so often it 
is the voice of leadership that makes a difference. In other 
words, the person you do not expect, like you, Governor 
Bentley, perhaps to take the kind of actions that you have 
taken. I mean, people have to say, wait a minute, Governor of 
what? What State? But you are doing it.
    And you, Governor Markell, I mean, so I want to go to this 
whole idea of ban the box. I think you have that in your 
State----
    Governor Markell. Yeah.
    Mr. Cummings. --Governor Markell. A lot of people do not 
realize that trap. It is a--when you get a record, it is like--
it is a life sentence. And I think unless people meet people 
who are in that position--and by the way, it is not just black 
folk. It is a whole lot of folk. They cannot do anything, ca 
not get a job, can not get--I think you mentioned, Pell grants, 
all kind--so what impact--I know you said something about 6 
months in a program where they could possibly work for the 
State for 6 months, can you explain that.
    Governor Markell. So on the ban the box----
    Mr. Cummings. Both of them. Yeah, ban the box and that.
    Governor Markell. So on the ban the box specifically, for 
those of you who are not familiar, many States, including 
Delaware, until we change this law, if you applied for a State 
job, there was literally a box on the application that you had 
to check if you had a record. Well, put yourself in the shoes 
of the hiring manager, and you have got a lot of applications 
coming in for a job, and a bunch of them have that box that 
somebody has got a record, and a bunch of them do not. I mean, 
I think it is pretty highly likely that if you are that hiring 
manager and you want to be through with the process as quickly 
and efficiently as possible, you put the stack with the check 
marks over here, and you just focus on the other applications.
    And so it is not as though when we changed the law and 
banned the box, it is not as though the hiring manager can not 
find out if somebody's had a record, but they will find out 
later in the process. And so we want people at least to get 
into the process, to have the chance for an interview. And we 
think that was an important step to take. And I am very 
grateful to feel Representative J.J. Johnson in Delaware for 
making that happen.
    If I could make one other point, Mr. Cummings, and it is 
really responsive to the point you are making about--was it 
your brother that is a public defender?
    Mr. Cummings. Yes, sir.
    Governor Markell. And you say he has seen three 
generations.
    Mr. Cummings. Three generations. He has got people's 
grandfather serving a sentence with grandson and son.
    Governor Markell. So the point that I want to make, I mean, 
I think all of the reforms that we are talking about today are 
extremely important. But that being said, if we are talking 
about avoiding the fourth generation, there is a whole lot of 
other stuff that is more important, or it is just as important. 
And it starts at the beginning, you know, whether it is, you 
know, the Nurse-Family Partnership program, you know--highly 
effective, nurses visit expectant mothers until the baby is a 
couple years old--early childhood education, after-school 
activities for kids. And so I think we have to do the things we 
are talking about here. But if we are not focused a whole lot 
earlier, we might be doing a good job at the later end, but 
what we really ought to be trying to do is avoid a whole lot of 
people entering the system as opposed to just saying we are 
going to do a better job with those people who are already in 
the system. We need to pay equal attention to get the people to 
not enter the system in the first place.
    Mr. Cummings. On that note, after the Freddie Gray incident 
in my district, in my neighborhood, we spent a lot of time 
talking to students in high school. And you know what I 
discovered, Governors? And I knew it, but I heard it upfront. 
There were so many children that said things like this: We feel 
that we have not gotten the education that we need to be all 
that God meant for us to be.
    And there was an anger that they wanted to be this doctor 
or they wanted this, and then they get to the 10th grade and 
discover that their reading skills are not what they are 
supposed to be, or they do not have the kind of courses to go 
to college, you know. And so it is that whole preventive thing 
that we need to be doing.
    And by the way, that, for some communities, is the norm. 
But in other communities, it is not the norm. And so some kind 
of way, we have got to figure out ways to deal with that 
education, the health issues--you are absolutely right. Freddie 
Gray had a serious lead problem. I mean, really bad. And so 
that, of course--and then, of course, there were others who 
have asthma problems. Why? Because of the environment. So we 
have got a lot of things to work on.
    And how do you determine, Governors--I mean, you are 
looking at the front end, Governor Markell and Governor 
Bentley, then you look at the back end, so how do you determine 
where you start or what you do? I mean, how do you make those 
determinations as leaders?
    Governor Bentley.
    Governor Bentley. Well, I think that what you are talking 
about, what Governor Markell is talking about, you know, we 
have to look on the front end, and we have to look on the back 
end. On the front end, what we have done in Alabama with this 
prison reform bill that we have passed, we have changed minor 
offenses, especially property offenses, and also drug offenses 
to a class D felony. And these will be put in community 
settings rather than being put in prison.
    Then, on the back end, what we are doing is we are helping 
the Pardons and Parole Board not to retry every case that comes 
up, and that is what tends to happen sometimes. And 40 percent 
of the--I say patients. Here I am talking like a doctor--but 40 
percent of the people that we have in prison right now are in 
prison because of problems they had with their parole, you 
know. They could not get there. They did not have a driver's 
license. I mean, there were just multiple problems. And so 40 
percent of our prisoners are related to their parole.
    And so what we want to do is find community settings and 
the types that work and put them into effect and make sure that 
jobs are available, make sure that workforce training is 
available, and make sure that when they do go before the 
Pardons and Parole Board, that they are not retried. It has 
different structures and different ways of looking at it. And 
they need to have guidelines. And so we are working on that. 
And so it is on both sides. It is on the front end, and it is 
on the back end.
    One of the things that we have done in Alabama--and I think 
most people would appreciate--what I have done is I have put a 
special emphasis on pre-K education. Alabama has the best pre-K 
education rating in the United States. We are rated number one 
in the United States as far as our pre-K program. And each year 
I put an extra $10 million into the budget, the legislature has 
put that and helped me do that.
    And by the time I finish my term this time, 3-1/2 years 
from now, with the help also of Arne Duncan and with the 
Federal Government--they have given us grants--every child in 
the State of Alabama will have the opportunity to attend a 
first class pre-K program. This will change their lives because 
that will set a foundation for them that they can learn later 
in life.
    The problem is you can not teach them in the sixth or 
eighth grade when they have not learned in pre-K levels and the 
first grade. So we put a special emphasis on that. Ten years 
from now, it is going to make a difference; 15 years from now, 
it is going to make a difference.
    Governor Markell. Our job, you know, is very similar to 
yours in that our responsibility is to make sure we get the 
best possible return on investment of our taxpayer dollars. And 
so there are those who certainly would like to see us build 
more prisons. But at $36,000 per prisoner per year, the 
question is, is that really where you get the best return?
    And so I am totally, you know, in agreement with the point 
that Governor Bentley was just making. We have doubled, for 
example, over the last 3 years, the number of low-income kids 
in Delaware who are enrolled in the highest quality early 
childhood centers. And this will change their lives.
    And so whether it is that or whether it is the additional 
work in K-12, continued improvement there, whether it is the 
opportunity for after-school and summer programming for these 
kids to focus on job skills, these are the choices that we all 
have to make. I mean, we are allocating resources amongst 
competing demands. And so I think what we need to try to do 
every single day is figure out where do we get the best return. 
And it is certainly my view for a whole lot less money we can 
get a better return on those investments than we can on 
building additional prisons.
    Mr. Cummings. Thank you very much.
    Chairman Chaffetz. Thank you.
    Now recognize the gentleman from South Carolina, Mr. 
Mulvaney, for 5 minutes.
    Mr. Mulvaney. I thank the chairman.
    I thank the gentlemen.
    To a certain extent, you guys are preaching to the choir, 
which is not necessarily a bad thing because it helps us sort 
of build interest and build momentum on particular legislation. 
We did this in South Carolina back in 2010 when I was in the 
State senate, and the results have been very similarly positive 
to what you gentlemen have talked about here today.
    I just pulled the most recent report. Our daily prison 
population is down almost 10 percent from where it was before 
we passed the reform legislation, down almost 25 percent from 
where we expected it to be, Mr. Chairman, if we did not pass 
the reforms. Our nonviolent population is down by 30 percent, 
which has allowed us to open space for more violent offenders. 
Our violent population is up by 6 percent. As a result of 
taking those people off the streets, violent crime in the State 
is down by 16. We have closed two facilities where we have 
saved almost $20 million a year now in South Carolina.
    In fact, Mr. Chairman, if there is no objection, I would 
like to enter the South Carolina Sentencing Reform Oversight 
Committee's most recent status report, June 2015, into the 
record as an example of what can go right.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Mulvaney. Governor Bentley, we actually focused on 
something you mentioned, which was how to handle parole and 
probation violations. We handle that now mostly 
administratively, not by sending people back into prison, and 
that has been very helpful to us.
    As we look at what has worked in other States, Governor 
Bentley, I know how we did it in South Carolina. How did you 
all do it in Alabama when you put your commission together, 
your JRI, your group? How did you do that in order to get buy-
in from all sorts of different folks?
    Governor Bentley. Well, what I did is, of course, we got 
the judicial branch, the legislative branch, and the executive 
branch, we all came together. There are very few times that----
    Mr. Mulvaney. Yeah, we do not ever do that in South 
Carolina, so----
    Governor Bentley. Well, that may be the case. But let me 
say this: It was bipartisan, Republicans and Democrats, and all 
three branches of government came together to form this 
commission. And we have worked together. And we have had great 
leadership from the legislative level, like Representative 
Jones, who is with us today. And so we have worked together. 
And now, I have appointed an oversight commission to implement 
the law that we put in place.
    Mr. Mulvaney. As a result, was there political blowback 
when you did it?
    Governor Bentley. No, there really was not.
    Mr. Mulvaney. Mr. Chairman, it was the same in South 
Carolina. I have never seen anything like that. We took this 
on. We thought it was going to be a very controversial issue, 
and it turned out to be something that had broad-based 
bipartisan support and that was supported back home, from law 
and order folks to civil libertarians. A lot of folks took a 
look at it and said: You know, this is generally a good thing.
    Governor Markell, you mentioned something--I apologize if 
we discussed voting rights earlier. It is something I hope we 
do get a chance to talk about. That is a big part of the 
difficulties that we face in our sentencing laws right now. But 
you mentioned something that is sort of related, which is this 
ban the box. I am not familiar with that. We did not handle 
that, I do not think, in South Carolina.
    Curious, how do you all handle differentiating then between 
violent and nonviolent, serious and nonserious. You say you 
took the box away, which I understand. But it was there for a 
reason, which is you wanted to sort of know if someone you were 
thinking about hiring had a particular type of background. So 
how do you handle it now? You said they find out later in the 
process. Have they found it to be an impediment to hiring good 
people?
    Governor Markell. Right, before the hiring decision is 
made, the hiring manager gets access to all that information. 
But the point is, it does not disqualify somebody on day one 
from having the chance to interview and to be considered.
    Mr. Mulvaney. Have you had any bad experiences yet with 
hiring people that you should not have?
    Governor Markell. No, because, again, the hiring manager 
does get full access to the information. It is just, I mean, it 
is really a matter of letting more people have an opportunity 
to get into the situation, and if they are, for example, a 
nonviolent offender who has paid their debt to society, can do 
the job, has the right skills, has the right attitude, instead 
of being disqualified from day one from even being considered, 
they are now part of the mix.
    Mr. Mulvaney. And open-ended question to either one of you: 
What are you gentlemen doing in your State regarding voting 
rights, about reestablishing the right to vote for nonviolent 
felons after they have paid their debt to society? Either one 
of you or both.
    Governor Bentley. Well, first, let me say, this is not part 
of our package right now.
    Mr. Mulvaney. It was not a part of ours either so that is 
why I am asking.
    Governor Bentley. But I will say this: You know, this is 
called for a reason a Department of Corrections. If it is a 
Department of Corrections, then you know if someone has been 
corrected, they should be able to live free in society. That is 
my personal opinion. So it is something that we are going to 
work on and something that I think that we really need to look 
at in Alabama.
    Governor Markell. We did a few years ago.
    Mr. Mulvaney. You did it?
    Governor Markell. Yeah, a few years ago.
    Mr. Mulvaney. How has it worked out?
    Governor Markell. I think it is fine. I have not heard any 
problems with it.
    Mr. Mulvaney. Chairman, with the risk of going over for 15 
seconds, we have fought in various States, including my own, 
over voter ID, which I think in an extreme case might deprive 
10 to 15 people of the ability to vote in my State on an annual 
basis. I compare that to our voting rights laws, which deny a 
large chunk of the folks I represent from the right to 
participate in the ballot box after they have rehabilitated and 
paid their debts to society. So I hope, as we go forward, we 
get a chance to look at that issue as well.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman.
    We will now recognize the gentlewoman from New York, Mrs. 
Maloney, for 5 minutes.
    Mrs. Maloney. Thank you so much, chairman.
    I want to really thank you for calling this important 
hearing.
    And I welcome two outstanding Governors. We appreciate so 
much your leadership.
    I want to really underscore Representative Ranking Member 
Cummings' leadership on this. I was privileged to join him at a 
public hearing in his district after the Freddie Gray incident 
on ways to respond, one of which was, of course, sentencing 
reform. He has been a national leader on it.
    And, Governor Bentley, I had the privilege of joining our 
President in your great State for the 50th anniversary of 
Selma. I want to congratulate you on the warm reception and 
everything you have done to highlight that important chapter in 
our history. It was a very meaningful--the Members meeting, 
along with John Lewis and Terry Sewell, in your great State, 
and I wanted to thank you.
    And particularly to thank both of you for your wonderful 
leadership in sentencing reform and particularly as it applies 
to nonviolent offenders. And I think it is important that we in 
the Federal Government follow suit on what you are doing in 
your States with this reform. I know that my State of New York 
is also working in this area.
    I would like to also focus on overcrowding of prisons, 
which in many cases has unsafe conditions for the employees and 
really for the inmates themselves. And I would like permission, 
if I could, unanimous consent to place in the record a letter 
to this committee from 60 different organizations across our 
Nation, including the ACLU, The Sentencing Project, the NAACP, 
the Prison Policy Initiative, the Leadership Conference on 
Civil and Human Rights, and many, many others, all of whom 
agree on a set of principles for reform to reduce excessive 
incarceration and racial disparities in the Federal Prison 
System.
    Chairman Chaffetz. Without objection, so ordered.
    Mrs. Maloney. Thank you so much.
    These principles include: Restoring proportionality to drug 
sentencing; secondly, promoting and adequately funding 
recidivism reduction and reentry programming; and, thirdly, 
making sentencing reductions retroactive; and expanding 
compassionate release; and expanding time credits for good 
behavior. And I appreciate so much allowing me to put this in 
the record.
    Both of your States, Governors, are operating at over 
capacity, as I understand it. And you have both implemented 
some reforms.
    Governor Bentley, it has been reported that Alabama is 
approximately at 190 percent of capacity, and your State has a 
plan to reduce its current prison population over the next 
several years. And how will the criminal justice reform package 
you signed into law this year help you to control this 
overcrowding and help reduce the prison population?
    Governor Bentley. Well, it is going to help on both sides. 
It is going to help on the front end because we have created a 
class D felony for minor crimes and for drug crimes, and there 
are some other crimes that we have reclassified also.
    But, also, on the back end, what we are trying to do is we 
are trying to--we will use community corrections, you know, for 
the minor crimes. And then, on the back end, we want to work 
with our pardons and paroles; we want to have more people to 
monitor our parolees. Right now, it is 200 to 1, and we 
obviously need to decrease that. This is going to take money, 
and we are going to put $26 million more into the budget this 
year, $151 million total over the next 5 years.
    And so it is going take money to do this. But, you know, it 
is so important because it has to do with people's lives, but 
also it is going to save money. So even if people do not look 
at other people's lives, it is going to save money for the 
State of Alabama because it costs so much to incarcerate these 
individuals. And we have to try to get these people out 
functioning normally, and I believe that we can do that with a 
large number of the population.
    Mrs. Maloney. You have also--I want to know--thank you. 
Even though with the $26 million, do you have adequate funding 
for it? But also you appointed in Alabama a criminal justice 
oversight and implementation council to oversee these reforms. 
And what role do you see the council having in overseeing and 
implementing these sentencing reforms?
    Governor Bentley. I did. I just appointed that oversight 
committee. The oversight committee is to make sure that the 
prison reform bill that we have passed and that I have signed 
into law--our legislature passed it--to make sure that it is 
implemented, that these things that we have put in the law will 
take place.
    We have to make sure, obviously, that we have adequate 
funding, and we are working on that right now. We certainly 
believe that we will. It is a bipartisan effort. Everyone 
understands the importance. It is at 195 percent overcrowding. 
This is intolerable. We cannot continue this. I inherited this, 
you know. This was not obviously of my doing, but we also see 
it is a problem that needs to be solved, and we are going to do 
it.
    Mrs. Maloney. And, Governor Markell, congratulations on the 
bill you signed into law that gives judges greater discretion 
to allow nonviolent offenders to serve their sentences 
concurrently. And how do you balance the need for public safety 
with the need to ease overcrowding and humanitarian concerns?
    Governor Markell. Well, you have to be smarter about it. 
And there is no question that some people need to be locked up, 
and you need to keep them there. I think on the issue of 
overcrowding, well, too many people are committing the crime, 
so you have got to get so some of the root cause issues. 
Recidivism is too high. Some of the sentencing needs to change. 
And so, I mean, it really is, there are a number of factors 
contributing.
    The one sort of specific area that I think is worth 
mentioning is that, in our case, we have a very significant 
number of our inmates who are there as pretrial detainees. And 
in a case--the women's prison in particular, really high 
percentage of those inmates are there as pretrial detainees. 
And so we are actually borrowing a program that, I think, 
started in your State, to do a better job of not sending all 
those pretrial detainees to prison, but making sure that they 
have got folks in the community who are ensuring that they are 
going to their probation or, you know, their appointments, 
getting the services they need and the like.
    So we are really trying to keep some of those folks out of 
prison in the first place, at least until trial because we 
know, it is just not--we know that if we keep them out, it is 
going to be better for them long term.
    Chairman Chaffetz. Thank the gentlewoman.
    Now recognize the gentleman from Tennessee, Mr. Duncan, for 
5 minutes.
    Mr. Duncan. Well, Thank you, Mr. Chairman. And thank you 
for your great leadership on this issue.
    And I appreciate the Governors taking time out from their 
busy schedules to be here. I am especially interested in this 
because I spent 7-1/2 years as a criminal court judge before 
coming to Congress many years ago trying the felony criminal 
cases.
    In my last newsletter, I quoted Paul Larkin, senior legal 
research fellow at the Ed Meese Center for Legal and Judicial 
Studies. He wrote, he said: Today, there are perhaps 4,500 
Federal offenses and more than 300,000 relevant regulations on 
the books. No one knows exactly how many. The Justice 
Department and the American Bar Association each tried to 
identify every Federal crime and failed. No reasonable person, 
not even a judge or lawyer, could possibly know all these legal 
prohibitions, although criminal penalties are attached to each.
    He said: We need a mistake-of-law defense.
    And I agree. There is now so many laws and rules and 
regulations on the books that they have not even designed the 
computer that can keep up with all of them, much less a human 
being. They are all being frequently changed. Almost everyone 
has violated some Federal or State law at some point. An 
innocent mistake is not supposed to be criminal, but a zealous 
prosecutor can make even the most innocent mistake look 
criminal.
    George Will, wrote in a column a few months ago, he said: 
Overcriminalization has become a national plague.
    And I can tell you that I have always been a very 
conservative Republican, but I am very supportive of the work 
that you Governors have been doing and that Chairman Chaffetz 
and the other Members that we had here this morning are doing 
because this is a very fast-growing problem.
    But I remember reading, I think, in late, in December of 
1993 or 1994, Forbes Magazine, a very conservative magazine, 
had a cover article that said we had quadrupled the Justice 
Department from 1980 until the mid-1990s and that prosecutors 
were falling all over themselves trying to prosecute people, 
and people were being prosecuted for violating laws that they 
did not even know were in existence.
    It has gotten out of hand. And we have greatly expanded the 
Justice Department and these crimes since the mid-1990s even 
more. So I really appreciate the work that you are doing.
    Now, I remember Ray Donovan, who was a member of President 
Reagan's Cabinet being tried on some very questionable charges, 
and he was found, of course, not guilty, and then came out and 
said: Where do I go to get back my reputation?
    So these prosecutions can be very harmful.
    I went through over 10,000 cases in the time that I was 
judge because in criminal court, probably 98 percent of the 
defendants plead guilty and then apply for probation. And so 
every day, for 7-1/2 years, I would read 8- or 10-page reports 
that went into the defendant's backgrounds. And every single 
day I would read, defendant's father left home when defendant 
was 2 and never returned; defendant's father left home to get a 
pack of cigarettes and never came back.
    And we found that over 90 percent of the defendants in 
felony cases came from father-absent households. And I am 
wondering in the work that you two have done, have you found 
that to be similar in your States, or have you looked into 
that? Because it seems to me, drugs and alcohol are involved in 
many of these cases, but the root of most serious crime in this 
country seems to be father-absent households. Have you all 
found that to be true also or----
    Governor Markell. I do not know the statistics. But what 
you are saying is very--it certainly resonates.
    Governor Bentley. I think that obviously the family is the 
first teacher, and people learn how to live by being around 
people. And they are around parents or lack of parents. There 
is no doubt that parents play a major role in a child's life. 
There is no doubt a father plays a major role in a child's 
life, more so than we give credit for maybe nowadays.
    And this is true. Education plays a role. You know, there 
are some things that we can change. You know, as Governors, as 
legislators, as governments, there are some things that we wish 
we could change. We wish we could change the family structure. 
Unfortunately, we can not pass laws to do that. So what we have 
to do is to make government more family friendly as best that 
we possibly can, help educate the family, help educate the 
children, do what we are doing in Alabama, have a quality pre-K 
program so that children will have a good, strong foundation, 
and support families as much as we possibly can. I just do not 
think we can pass laws to do that. I wish we could, but we can 
not.
    Mr. Duncan. One thing I did, I started a court counselor 
program, I called it, similar to the Big Brothers Big Sisters 
program, and I got church people and various volunteers to come 
down because I said the probation counselors and the parole 
counselors were overloaded and that most of these young people 
had very seldom even sat down with a family at dinner and had 
agreed to volunteer to meet once a week with these defendants 
while they were on probation.
    Governor Bentley. One of the things that I am going to do, 
in fact, I am going to create a task force in the very near 
future on this with faith-based organizations in the State 
because there are a lot of faith-based organizations in the 
State, but there is no organizational structure to them. And so 
what I am going to do is create a task force and bring them all 
together and let them work in the prisons because I think 
faith-based organizations are vital.
    I do not believe, unless you change attitudes and change 
the heart, I do not think people are ever going to change. And 
so I think they play a vital role in this. But there is no 
structure and no organizational structure. So we are going to 
bring all organizations together, and we are going to let them 
work in the prison system.
    Governor Markell. You know, we have seen, at a very 
personal way, in addition to Statewide, the power of 
introducing adults into the lives of many of these kids, who 
are being raised without dads. You know, my wife and I have 
been mentoring a couple of young men now for probably 14 or 15 
years, neither of whom ever had a father in their life.
    And my wife especially, and you can just--mentors can 
change a kid's life. And it would be better for everybody if 
that was not the answer, but I do think that, you know, 
anything that we can do, all that we can do to encourage more 
people to get involved in the lives of these young people, the 
better off they are going to be.
    Governor Bentley. Boys & Girls Clubs, all those things that 
you are talking about. The Boys & Girls Clubs and all these 
types of organizations do a fantastic job, and we need to take 
advantage of those.
    Mr. Russell. [Presiding.] And the gentleman's time has 
expired.
    I would ask all the members, we have agreed to a hard time 
of respect to the Governors at noon. So in the interest of 
accommodating all of the questions, I would ask that you would 
please stick to the allotted time.
    And the chair will now recognize the gentlelady from New 
Jersey, Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    And I thank you both very much, Governors, both for being 
here today and sharing the good news of what you are doing and 
the reforms that are taking place and giving me hope that even 
New Jersey is going to catch up.
    I spent a lot of time on these issues when I was a 
legislator in New Jersey. And we looked at things, alternatives 
to incarceration, what happens when you are incarcerated, what 
happens when you are coming to the end of your term, your 
sentence, and how to get you reintegrated back into society, 
all of which, you know, you all have addressed. And I think 
that we are all moving in the right direction.
    One of the concerns I have is that we have a tendency to 
work in silos. And I think that things that we did not do as 
well in New Jersey that we should have done, we decided that we 
could not pay to educate our inmates even though the literacy 
rate was so doggone low, so they came in barely able to read, 
and they left in the same way. We disinvested in skills 
training, and so when they came in, they came in with no 
skills, and they left with no skills.
    And so that was all ripening for recidivism, which is a 
very high rate in the State of New Jersey. So I am very 
interested in looking at what do we do with those who are 
incarcerated, in the sense of giving them educational 
opportunities as far as their intellect will take them as long 
as they are incarcerated, giving them job skills that will help 
them--marketable job skills that will help them as they come 
out and then working with the system with ban the box that I 
sponsored in New Jersey and other initiatives that helped them 
to integrate into the workforce.
    But I, honest to God, believe that we need to be investing 
a lot in the beginning of this experience and that is in the 
mother's stomach. And from the time that mother has that baby, 
we need to be figuring out a way to incentivize her coming out, 
getting job skills, even paying for being trained or 
apprenticed, incentivizing putting that child into early child 
care, babysitting, whatever, not just preschool.
    But the only way that I think that we will eliminate that 
cycle, that three-generation cycle that my ranking member 
referred to that I have seen in the State of New Jersey, is if 
we deal with it holistically, the Departments of Education, 
Human Services, Health, as well as corrections, works together 
and looks at, what does it take to have a healthy human being? 
Start from the baby all the way up to the adulthood.
    And until we are really willing to pull task forces 
together and to put resources into that, recognizing it is not 
cheap--it is not going to be cheap to pay people to be trained 
in jobs. It is not going to be cheap to incentivize that mother 
to get into that training program and for that child or that 
baby or babies to be in early childhood. But to me, that is 
what we need to do in order to really start creating healing 
and healthy communities.
    And the other thing that I am very concerned about is as 
many alternatives as possible to juvenile incarceration and 
recognizing that that juvenile mind does not really become 
mature until it is 21-years-old. So that whole issue of raising 
our juveniles up, I am happy to see that you all recognize the 
significant negative impact that has.
    And so, with that, I am going to exit because I just know 
that there is much more work to be done. And I am glad to see 
that I have a Southern State and I have an Eastern co-State who 
recognize that also, and that--I just am willing to work with 
any Member from either side on issues that will get us to where 
I think we could be.
    Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Russell. Gentlelady yields back.
    And the chair will now recognize himself for 5 minutes.
    Senator Booker in earlier testimony had talked about plea 
bargains and how this constitutes the vast majority of 
sentencing. How have you factored this in in dealing with the 
issues that we have discussed today in your own States?
    Governor Markell. It is an interesting question. I mean, I 
think it is true. And I do not know that we have, you know, 
done any specific thinking around the plea bargain issue and 
how it affects the rest of what we are doing. But, I mean, I 
think, I really agree very much with the comments that were 
just made. I mean, this starts at the beginning. And so if you 
want to have fewer people in a plea bargain situation, I mean, 
it really, it starts incredibly early, and you have got to work 
throughout the child's life into young adulthood.
    And, obviously, the hope is we have got many, many fewer 
people who were in that position in the first place. And so if 
somebody plea bargains out, the question is, what kind of 
opportunities are available to that person to actually, you 
know, get a job, hold a job, live a decent life. And so I 
think, you know, it is really the same set of issues around 
early childhood, around education, around having things to do 
in your community, around having mentors. And then, you know, 
once you have gotten involved in the criminal justice system, 
whether you are going to be able to get a job.
    And, you know, I think you were here at the beginning when 
I talked about one of the issues in Delaware. Until last year, 
even if your crime had nothing to do with driving a car, there 
was a pretty good likelihood you would not be able to get a 
driver's license. We have got to think, I mean, part of our 
responsibility is, how do we set people up for success?
    And if we know that one of the most important factors, one 
of the most important predictors of whether or not somebody is 
going to get on a better track is whether they can hold down a 
job, and we have got a system in place that says, ``Well, you 
might be able to get a job, but you are just not going to be 
able to get to it,'' does that make any sense?
    And I just think, you know, so much of this is stepping 
back and saying if we try for a moment to put ourselves in the 
shoes of the people who are trying to, you know, advance, what 
is it that is going to stand in their way, and what is the role 
that we can play in terms of taking away----
    Mr. Russell. The reason I brought up the question was, you 
know, you were addressing the check-block issue and talking 
about the difficulty of them having to be able to get a job. 
But on the front end of that, someone is accused and could lose 
their job. Now, they can not provide an adequate defense, and 
they are faced with a plea or rolling the dice with a jury 
that, you know, by all statistics, 97 percent, I think, Senator 
Booker had said, they never get to that. And so it seems to me 
that this is also a part of the equation, and that is why I 
specifically asked the question.
    Governor Markell. Thank you.
    Mr. Russell. And now, Governor Bentley, did you have any 
comments on that?
    Governor Bentley. I would think plea bargain would have to 
do with the overcrowding of the court system and whether or not 
someone had the finances, what you were talking about, to hire 
a lawyer. So sometimes they just have to take what they can 
get. However, once the plea takes place, they enter the system, 
and so then we have to deal with them in the system. And that 
is what we are dealing with mostly right here in our new 
legislation is those who have entered the system.
    Now, we do have a problem in Alabama: Just like any State, 
we do not have enough money; we do not have enough courts; we 
do not have enough lawyers; we do not have enough defense 
attorneys. So, you know, we do not have that because--and that 
still boils down to money, and we are working on that situation 
right now. But I would think that a lot of that has to do with 
the lack of finances and the lack of our court system being 
adequately funded.
    Mr. Russell. Thank you.
    And I will yield back now.
    Mr. Connolly. Would my friend yield?
    Mr. Russell. I am sorry?
    Mr. Connolly. Would you yield for a second?
    Mr. Russell. Out of interest to get the other members, I am 
going to go ahead and expire my time----
    Mr. Connolly. I was just going to agree with you.
    Mr. Russell. --just so we can get everybody with the 
remaining time that we have to hit the hard time at 12:00.
    The chair will now recognize the gentlelady, Ms. Plaskett.
    Ms. Plaskett. Good morning, everyone.
    And thank you to the chair and Mr. Cummings, Ranking 
Member, for your leadership in bringing this issue of criminal 
justice reform, not only here in Congress but as well 
throughout the country.
    I have a background which is very much in line with our 
hearing today. I am the granddaughter of a deputy police 
commissioner. My father was a New York City Police officer for 
30 years. My first job out of law school I was a prosecutor in 
the Bronx doing narcotics prosecution. And I have seen how the 
role of criminalization and overcriminalization takes place in 
communities.
    As a person of color, I have also seen the other end of it. 
I have defended relatives in criminal matters. I have had to 
recuse myself as a prosecutor when I look across the aisle and 
see that it is a relative for the case that I am holding up. 
And so I understand that this is an area that impacts us 
tremendously.
    I had the distinct honor of working for Jim Comey and Larry 
Thompson in the Deputy Attorney General's Office at the Justice 
Department. And I think Director Comey is doing what he can as 
well at the level that he is at to work on this.
    Ms. Plaskett. The thing that I wanted to talk about was 
what I think is the root of what happens here. As a prosecutor, 
my mandate was to prosecute crimes. And I see too often that 
people are very interested in prosecuting people as opposed to 
the crime.
    And I think that there is a devaluation that has occurred 
in human life that has caused us to create the system that we 
have in our prisons and the feeling that happens and the 
school-to-prison pipeline that has occurred.
    Governor Bentley, you talked about the pre-K system, and it 
is fantastic to hear what you have done in terms of bringing 
our youngest children into education. Because, to me, you are 
correct; that is the key.
    But I wanted to see if you could talk a little bit about 
what occurs in the junior high and high school levels in the 
amount of juveniles that we have, that our law enforcement 
becomes too quickly involved in our school systems, and there 
is not a deescalation that our teachers are aware of, and the 
students do not have the necessary skill sets to be able to not 
go into the criminal system.
    We talked about the statistic that Alabama has in 190 
percent, as well as, Governor Markell in Delaware, the work 
that you are doing.
    What percentage of the individuals that are in your prisons 
are, one, there as juveniles for adult crimes? And, also, I 
know that 40 percent in Alabama are parole and probation 
violations. But how many are--Governor Markell talked about 
it--how many are presentencing, individuals who are awaiting 
trial, individuals who have been possibly convicted and waiting 
for sentencing?
    If either of you could talk about those.
    Governor Markell. So, in terms of the percentage who were 
juveniles serving adult crimes, I am not sure.
    I will tell you that, in terms of pretrial, up to 40 
percent of the women, I think closer to 20 percent of the men.
    And, to your point about the youth, it is one of the things 
that we need to do a much better job of. When we see our kids 
who come into our juvenile facilities, they make extraordinary 
progress while they are there. I mean, I meet these kids at the 
beginning, and I see them 6 months later when they are getting 
out, and their academic and emotional progress is noticeable. 
But then what happens to too many of them is they get out of 
the juvenile facility, they are out of the structured 
environment, and they go back to the community they came from. 
They very often do not go back to their traditional school. A 
lot of them fall through the cracks.
    And this is something that we just have to make a whole lot 
more progress on. It is something that we are working on, but 
it really needs to--it includes the traditional schools. It 
includes, you know, this system. But it is just--it is amazing 
to see how much progress they can make and so tragic to see, 
after making that progress in a structured environment, how 
many of them are not able to keep up that trajectory.
    Mr. Russell. And the gentlelady's time has expired.
    And the chair will now recognize the gentleman from 
Alabama, Mr. Palmer.
    Ms. Plaskett. Mr. Chair, would you allow Governor Bentley 
to respond to my question?
    Mr. Russell. Yes.
    Governor Bentley. I will get back with her with the answer.
    Mr. Russell. Well, we can allow that, but, unfortunately, 
then what will happen is Mr. Palmer will be the last and then 
we will stick to our time.
    So, Governor Bentley, please.
    Ms. Plaskett. Thank you.
    Governor Bentley. Let me say, I do not know either how many 
are in prison now who were juveniles when they committed the 
crime. We can get those statistics for you, and we can get back 
with you on that issue.
    Mr. Russell. And the chair now recognizes the gentleman 
from Alabama, Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    And thank you, Governor Bentley and Governor Markell, for 
being here today.
    We have had a lot of discussion about what we need to do to 
help reduce the likelihood of people entering prison, but I 
think the issue that we are faced with immediately is the 
overcrowding issue. I know that is in Alabama. And the 
Governor, Governor Bentley, has spoken in detail about this new 
legislation that we passed.
    I want to commend you for that.
    I would like for people to realize that this does not put 
citizens at risk. And I think, Governor Bentley, you may want 
to expand on this, but that this has a program in place that 
monitors the prisoners once they are out of prison and in no 
way undermines public safety. Is that correct?
    Governor Bentley. That is correct.
    Mr. Palmer. What I would like to focus on right now is how 
we help these prisoners once they leave prison. San Francisco 
County Jail No. 5 offered inmates the opportunity to earn a 
high school diploma, and it cut the recidivism rate in half.
    I just pulled up a RAND study. And the gentlelady, Ms. 
Plaskett, may be interested in this. Of the 700,000 individuals 
who are released from correctional facilities each year, 
roughly 100,000 of them are 24 years or younger. So there are a 
large number of young people being reintroduced.
    In 2013, the Department of Education hosted two summits on 
education in correctional facilities, and they found that there 
were some--they made some policy recommendations that I think 
both Governor Bentley and Governor Markell might want to 
consider, and that is to improve the quality and availability 
of educational programs, including special education programs 
and programs for English language learners and career tech. 
They also recommended improving access to postsecondary 
education and career technical training and, thirdly, improve 
cross-system collaboration and appropriate information-sharing.
    Now, the interesting thing--and Governor Bentley made the 
point about Alabama's pre-K program being ranked so high 
nationally. Our Internet-based learning, our access program, is 
ranked number one, or very high.
    Has any thought been given to using online learning to 
educate prisoners, to allow them to earn a high school diploma 
or, in the cases for those that have a high school diploma, to 
earn a vocational degree or an associate's degree? And I pose 
that question to each of you.
    Governor Bentley. Well, I think it is vital that we try to 
encourage those who are incarcerated to better themselves with 
education. If we do not do that, then, obviously, they are not 
going to survive when they get out.
    And I do believe--and I discussed this on the plane coming 
up today--the next step, we need to get our workforce 
development program, our workforce development team that I have 
put together in the State, find out what jobs are available, 
what jobs are needed in the State, and then require our 
education entities, like our 2-year college system, like our 4-
year college system, require them to be a part of this and 
bring people together so that education can be offered. And if 
the incarcerated individuals take advantage of that education, 
then they ought to be rewarded for that.
    Mr. Palmer. Can I--Governor Markell, I am going to not 
allow you to answer because I want to make a point here in 
respect to what I think we might ought to consider.
    And that is, if we set this up so that inmates who are 
eligible for parole, nonviolent offenders, do not have a high 
school degree or have a high school degree, if they earn their 
high school degree, they earned a vocational degree or a 2-year 
degree, they would be immediately eligible for parole. And not 
only would it give them an incentive to get the educational 
attainment that they need, but this RAND report that I cited 
earlier found that there is a 43-percent lower rate of 
recidivism.
    So if we could incentivize prisoners to get the education 
and the work skills that Governor Bentley mentioned, I think it 
would help us reduce our prison population and allow inmates to 
enter society again prepared to go to work.
    Thank you, Mr. Chairman. I yield.
    Mr. Russell. Out of respect to the hard times that were 
requested by the Governors present, I would like, on behalf of 
Chairman Chaffetz and also Ranking Member Cummings, to thank 
the Governors for the insightful testimony and your leadership 
on these issues.
    If there is no further business, without objection, the 
committee----
    Mr. Cummings. I would just like to thank----
    Mr. Russell. The chair will recognize the ranking member.
    Mr. Cummings. Again, I want to thank both of you for what 
you are doing.
    And I think the key is, and part of, Mr. Chairman, what we 
are doing here, is amplifying what you are doing in hopes that 
other people will see it, other leaders will see it, and be 
bold enough to take the steps that you are taking. So then you 
would have best practices, and hopefully they spread.
    And thank you very much. And we also thank your State 
legislators.
    Mr. Russell. And I would like to echo the ranking member's 
comments. There is a lot of innovative approaches, and these 
are things that we can all learn from.
    If there is no further business, without objection, the 
committee will stand adjourned.
    [Whereupon, at 12:05 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               
               

                                 [all]
</pre></body></html>
